                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

Case Number: A04040022                                                                                           Page 1 of 2



                     Our office became aware of an institution,' which was conducting a project2through several
             subawardees, allegedly in violation of NSF's Conflict of Interest policy3 and the Common Rule for
             the Protection of Human Subjects.

                         he
                          alleged violation of the Conflict of Interest Policy, focused on issues involving a
             ~ubawardee.~   OIG found that NSF7sGeneral Grant Conditions (GC-1) does not pass the requirement
             for financial disclosures through the awardee to the 's~bawardee.~         However, NSF requires the
             awardee to have a conflict of interest policy and to enforce i t 6 T G ~institution's policy, which uses
             text from the Public Health Service (PHs) regulation, required financial disclosure or certificationby
             the subawardees. OIG found that.the institution failed to enforce~itsown policy for this award as                         ,

             well as in thirty-eight other awards and was therefore in violation of NSF's Conflict of Interest
;       -    Policy. In response to OIG's aciivities the institutionr.took s t ~ p sto correct that failure. The
                                                                              A,   +                                               ,

    :        institution has now reported to OIG that it his received,certificatidns fiom its investigators on all of
             its NSF awards and made changes'in its policy for cl&ty.             i
                                                         ,      :*
                                                                c'.
                                                                      8
                                                                              .I   ,
                                                                                          r!

                      During the course of our investigation, OIG reviewed all ijf the institution's active awards7
             for the involvement of human subjects and the required declaration by the institution that the project
             was either approved by the Institutional Review Board (IRB) or exempt from further review. When
             OIG pointed out apparent lapses in compliance, the institution supplied either documentation for IRI3
             review andlor a statement by an official other than the PI citing the exemption. In two instances, a PI
             had determined erroneously that human subjects were not involved; however once identified by OIG
             as a human subjects project, the institution obtained expedited review and declared the applicable
             exceptions. The institution reported in most instances that the lapses resulted from a
             misunderstanding of NSF's regulations and policy. The institution has assured OIG that changes
             have been made in institution policy and procedure to ensure improved compliance. The institution
             also provided supplementary material to the NSF program offices to correct the award jacket^.^




                 NSF Grant Policy Manual Section 5 10.
            -4
              Article 33 requires investigator to disclose financial conflicts of interest. Article 8.a.3 contains a list of the
             provisions that pass through to the subawardee. Article 33 is not in that list.
              NSF Grant Polic Manual Section 5 10
             'Totaling over   h.
              The cognizant program officer for the contract asserted that work approved by OPM under the Paperwork
             Reduction Act (PRA) does not require h w n subjects review. OIG legal staff have determined that the PRA does
             not preclude human subjects review.
